<html>
<title> - AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2007</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
           AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2007

=======================================================================

                                (109-51)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure
                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-266                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         JOHN T. SALAZAR, Colorado
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               BRIAN BAIRD, Washington
RICHARD H. BAKER, Louisiana          TIMOTHY H. BISHOP, New York
ROBERT W. NEY, Ohio                  BRIAN HIGGINS, New York
GARY G. MILLER, California           ALLYSON Y. SCHWARTZ, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  EARL BLUMENAUER, Oregon
BILL SHUSTER, Pennsylvania           ELLEN O. TAUSCHER, California
JOHN BOOZMAN, Arkansas               BILL PASCRELL, Jr., New Jersey
JIM GERLACH, Pennsylvania            RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                NICK J. RAHALL, II, West Virginia
TED POE, Texas                       ELEANOR HOLMES NORTON, District of 
CONNIE MACK, Florida                 Columbia
LUIS G. FORTUNO, Puerto Rico         JOHN BARROW, Georgia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Knight, Bruce I., Chief, Natural Resources Conservation Service.    15
 Middlebrook, Craig H., Deputy Administrator, St. Lawrence Seaway 
  Development Corporation........................................    15
 Strock, Lieutenant General Carl A., Chief of Engineers, U.S. 
  Army Corps of Engineers........................................    15
 Woodley, Hon. John Paul, Jr., Assistant Secretary of the Army, 
  Civil Works, U.S. Army Corps of Engineers......................    15

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    38
Costello, Hon. Jerry F., of Illinois.............................    39
Salazar, Hon. John T., of Colorado...............................    62

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Knight, Bruce I.................................................    44
 Middlebrook, Craig H............................................    50
 Strock, Lieutenant General Carl A...............................    64
 Woodley, Hon. John Paul, Jr.....................................    70


           AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2007

                              ----------                              


                        Wednesday, March 1, 2006

        House of Representatives, Committee on 
            Transportation and, Infrastructure, 
            Subcommittee on Water Resources and 
            Environment, Washington, D.C.
    The committee met, pursuant to call, at 2:00 p.m. in room 
2167, Rayburn House Office Building, Hon. John Duncan [chairman 
of the committee] presiding.
    Mr. Duncan. I want to welcome everyone to our first 
Subcommittee hearing of this second session of the 109th 
Congress.
    Last year, this Subcommittee dealt with some very important 
issues and moved legislation that would improve the lives of 
almost every American. Working together, we passed amendments 
to the Clean Water Act that would improve water quality of the 
Nation's beaches, control the overflows of untreated waste 
during periods of wet weather, help communities find 
alternative water supplies and protect and restore the water 
quality in the Long Island Sound.
    In addition, we passed legislation that would establish the 
21st Century Water Commission that would address future water 
resource management needs, including future water supply and 
demand, which is a very important topic. Once again, the 
Subcommittee passed the Water Resources Development Act that 
would authorize Army Corps of Engineers projects and studies. 
We had a very productive first session and I look forward to a 
very productive second session as well.
    As for our legislative agenda, I hope that the Senate will 
pass its Water Resource Development Act, so that the bill can 
move to conference and then on to the President. As most of you 
know, there was a letter signed a few days ago by 78 Senators 
asking that floor time be given to this bill. I understand 
there are some other Senators that have expressed a desire to 
sign on to that letter as well.
    There has not been an authorization bill for the Corps of 
Engineers projects since 2000. Since then, the Chief of 
Engineers has recommended 35 major new projects for 
construction and a number of projects need to be modified in 
order to work more efficiently. We have done our work here in 
the House, but there have been some holdups or problems in the 
Senate.
    The only proposed new authorization language sent to 
Congress by the Administration came last week, and it is for 
additional flood protection work related to Hurricane Katrina. 
I want to be responsive to the Administration's request and get 
the Corps of Engineers the authorizations that the Corps needs 
to strengthen the flood protection system in New Orleans. The 
best way to do that, though, is for the Administration to 
support adding the important Katrina authorizations to the 
Senate Water Resources Development Act that is ready for Senate 
floor action. This Committee can then address the needs in the 
context of a conference, which can be called very quickly.
    This approach will assure that the Corps of Engineers gets 
the authority it needs to make the flood protection system in 
New Orleans stronger and better. It also will address the water 
resources needs all over the Country, where members have been 
working closely with communities and have been waiting several 
years to get their projects authorized. In fact, there are 
other communities across the Country that have potential 
dangers, just as we saw in New Orleans.
    Other priorities of the Subcommittee this year will be 
wastewater infrastructure, development of a levee inventory and 
safety program, reauthorization of Brownfields grants, control 
of invasive species through ballast water management, and good 
Samaritan legislation to remove barriers to abandoned mine 
cleanups.
    Today the Subcommittee meets in the first of two hearings 
to examine the budgets and priorities of the agencies within 
our jurisdiction. Today we shall hear from the Corps of 
Engineers, the Natural Resources Conservation Service and the 
St. Lawrence Seaway Development Corporation.
    Next week, on March 8th, we will hear from the 
Environmental Protection Agency, the National Oceanic and 
Atmospheric Administration and the Tennessee Valley Authority.
    As a fiscal conservative, I support the President's efforts 
to control Federal spending. However, as I have said before, I 
do not support cutting investments in this Country that have 
proven economic benefits. Investments in the flood damage 
reduction projects help protect cities nationwide from the 
economic losses that come from hurricanes and other flood 
events.
    As the global economy expands, there will be increasing 
demands on all modes of transportation. If the United States is 
to remain dominant in the world economy, we must have a modern 
transportation system. That means ports and waterways that can 
accommodate the transportation needs of tomorrow.
    Unfortunately, the proposed budget continues a trend of 
under-investments in water infrastructure. The result has been 
a steady and general degradation of our navigation and flood 
control infrastructure. Overall, the Corps budget request for 
fiscal year 2007 of $4.7 billion is 42 percent below the fiscal 
year 2006 enacted amount of $8.2 billion, including 
supplemental appropriations. A fully obligated Corps program 
would be $9 billion in fiscal year 2007, far above the $4.7 
billion requested.
    Under the proposed budget, no new Corps studies are funded 
that would lead to traditional projects. This would affect not 
only the availability of good investment options in the future 
but also would affect staffing levels in the Corps, since 
employees are paid in part with study funds. Construction funds 
for Corps projects are concentrated on a few ongoing projects 
that can be finished relatively soon. This leaves most ongoing 
projects with no funding at all.
    As in recent years, the budget request constrains funding 
for the operation and maintenance of Corps projects. The now 
chronic problem of deferred projects is affecting the 
navigability of our waterways. Some waterways have been 
temporarily closed, and ships must enter and leave some ports 
only partially loaded, greatly increasing the transportation 
costs.
    The most startling thing about this budget request is that 
it would require the termination of 532 ongoing studies and 
projects. These are important efforts that the Congress has 
authorized and funded. Members have worked hard with the Corps 
and local officials to see that the necessary partnership 
agreements were made. This budget request abandons our 
constituents and causes them to question the credibility of the 
Federal Government to live up to its obligations.
    The budget request for the Natural Resources Conservation 
Service is even worse than that for the Corps of Engineers. The 
small watershed program that provides small cost effective 
projects that protect our water and our land in rural America 
would receive no funding under this budget.
    The St. Lawrence Seaway Development Corporation is a 
transportation agency that manages the U.S. part of the St. 
Lawrence Seaway. The budget request includes a proposal for new 
tolls on the use of the Seaway. This seems inconsistent with 
the Department of Transportation's efforts to increase use of 
the Seaway as a means of reducing congestion on other modes of 
transportation.
    I look forward to hearing from the agency representatives 
that have come to testify. But first, I want to recognize my 
good friend, the Ranking Member of the Subcommittee, 
Congresswoman Eddie Bernice Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, for holding 
today's hearing on the fiscal year 2007 budget and its impact 
on the programs within the jurisdiction of this Subcommittee.
    Mr. Chairman, the Presidential priorities reflected in this 
budget are contrary to the Nation's priorities of protecting 
public safety and the environment, investing in the future and 
ensuring continued economic prosperity. Quite simply, this 
budget is not adequate to meet the Nation's needs.
    Mr. Chairman, this budget takes a penny-wise, pound-foolish 
view of the economy, making imprudent short term cuts to 
programs that have proven essential for long term economic 
health. This Administration fails to recognize that continued 
investment in water-related infrastructure is a key element for 
stimulating and improving the U.S. economy, an economy built on 
the investments of our predecessors.
    Cutting investments today and exploding future deficits can 
only serve to deny economic opportunity to future generations. 
For example, in my district, the President's budget eliminates 
funding for the Dallas Floodway extension project. This flood 
control project along the Trinity River provides critical flood 
protection for downtown Dallas and the neighborhoods of Oak 
Cliff and West Dallas. Raising the level of flood protection 
and protecting the lives and livelihood of some 12,500 homes 
and businesses.
    Think of the American Center, where the Mavericks play, or 
the Dallas Area Rapid Transit office, or the city and county 
administration offices, the Federal offices and Federal courts 
and much new development going on now. And it almost happened 
Saturday night. But in addition to all of this, Mr. Chairman, 
it floods the original Neiman Marcus. That's what gets my 
attention.
    [Laughter.]
    Ms. Johnson. The City of Dallas estimates that this project 
will prevent an excess of $8 billion in flood damages and 
provides additional recreation opportunities for those visiting 
the Dallas metropolitan area. This is just one example of the 
impact of the Corp's budget. I am certain that every member of 
this Committee could identify similar important projects that 
are targeted for elimination or reduction in this budget.
    I am also concerned about the impact of this budget on the 
Corps' ability to conduct vital operation and maintenance 
activities. For both navigation and flood control projects the 
passage of time has taken a toll and has created the real 
possibility of catastrophic failure to essential transportation 
linkages of flood transportation projects.
    As the Nation learned in the aftermath of Hurricanes 
Katrina and Rita, poorly constructed or maintained flood 
control structures can result in tremendous economic and 
personal hardship as well as the loss of life. Mr. Chairman, 
this budget forces the Corps to do more with less money. It 
bets the continued reliability of our infrastructure on the 
hope that it will hold together just a few more years. This is 
very irresponsible.
    Mr. Chairman, these cuts are also not limited to the Corps, 
but also in the budgets of other Federal agencies represented 
here today. The small watershed programs for the Natural 
Resources Conservation Service are completely eliminated. There 
is no consideration of termination costs, no consideration of 
State or local investment, and no consideration of the 
potential threat to public safety that comes from shutting down 
these programs. This budget abandons rural communities.
    I hope the witnesses will listen to the concerns over the 
cuts proposed by the President's budget and will understand the 
real impact behind these numbers. The implication of 
insufficient investment in our Nation's water-related 
infrastructure to both the current and future economy are 
massive. But the implications of failure of our navigation 
flood control infrastructure can be devastating, not only to 
local economies, but to lives and livelihoods.
    As demonstrated by Hurricanes Katrina and Rita, the Federal 
Government will either pay up front to protect lives and 
property or will pay afterwards to rebuild and restore people's 
lives. This Committee understands these potential impacts. 
Clearly, we need to do a better job of educating this 
Administration to this point.
    I thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Ms. Johnson.
    Does anyone on our side wish to make an opening statement?
    Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. I have a statement 
that I will enter into the record. But let me thank you and the 
Ranking Member, Ms. Johnson, for calling this hearing today.
    Mr. Chairman, the President's budget does not even come 
close to meeting the needs of our Nation's infrastructure or 
its environment. We cannot continue to under-invest in the 
Nation's infrastructure or its environment. We have an 
obligation to the American people to take care of our 
infrastructure and resources and an obligation to provide for a 
better, cleaner and safer world to them and the world in which 
we live.
    Let me say that I want to associate myself with your 
comments concerning over 500 studies that have been authorized, 
and many of them are underway, that this budget would 
completely eliminate. I have major concerns with the budget 
cuts that are proposed and would hope that not only will we 
continue to have the hearings as you have outlined for the 
Subcommittee, but also that we will go to the appropriators and 
attempt to restore many of the cuts that the President is 
proposing.
    Thank you again, Mr. Chairman.
    Mr. Duncan. Thank you very much, Mr. Costello.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. Just a couple brief 
comments.
    I think this Committee has the ability through oversight to 
work with you to see which projects that are still out there 
should be cut. And I am sure there are a number of them. I can 
give you a number in my district with the Corps of Engineers, 
with dredging and deepening projects, that we want off the 
table. So we can do that. I hope we can work through that 
process.
    One of the aspects of the Clean Water Act is the 
enforcement arm of the Corps of Engineers through their 
regulatory program. Well, that has been slashed, and a number 
of people in various districts, my own included, have been cut 
or retired and there are no Corps of Engineers regulators now 
looking at those problems with non-tidal wetlands and being 
developed.
    I know land use is a local issue. But for years in my 
district, we had the kind of regulatory agent from the Corps of 
Engineers dealing with those issues, not only effectively to 
preserve that ecosystem, but they worked very well with local 
communities to be able to identify that. And in the NRCS, there 
are just a myriad of wonderful little programs that are 
stunning in their success of helping people understand how 
human activity can be compatible with nature's design and 
everybody benefits in the long run. And there is a huge 
reduction in overall costs.
    So I am glad we are holding this hearing, Mr. Chairman. As 
we go through this process, there are some issues that we need 
to face bluntly, squarely, frankly. And I know you guys, unless 
you have a relative at OMB, you have to be careful with what 
you say with their budget and the Administration's budget. We 
are not under those same restrictions here.
    But if we are looking to balance the national budget and 
pay off the national debt, we are not going to do it with these 
small, little projects that are beneficial and enhance the 
dynamics of economic growth.
    I am looking forward to your testimony and thank you again, 
Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Gilchrest.
    Ms. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman. I am very happy to 
see Lieutenant General Strock and Mr. Woodley here at today's 
hearing. I apologize, I have three hearings going on at the 
same time. But I will be brief, and I am probably going to 
submit some questions for General Strock to answer by writing.
    We all know that we have an aging infrastructure, both of 
transit systems, highways and water systems. They are near the 
end of their useful lives. We need rejuvenation, we need 
investment and repair. I think we are all on the same page for 
that. We also have expanding populations and an economy that 
requires new and improved infrastructure systems.
    That is why I really don't understand the President's 
budget request for the Army Corps of Engineers, and why it is 
so puzzling that seemingly hundreds of projects around the 
Country apparently are no longer important and not even 
important enough to be studied.
    In California, for example, 86 projects have been de-
funded. Specifically in my district, the President's budget 
included no funding for the CALFED levee integrity program. If 
you are not familiar with this program, it is designed to 
identify the most critical levees in the San Francisco Bay 
Delta and target where Federal investment should be made. The 
Bay Delta supplies drinking and agricultural water to over 22 
million Californians, and millions of acres of farm land. 
Additionally, it holds back the waters of the San Francisco Bay 
and Sacramento and San Joaquin Rivers.
    Should there be a massive levee failure in the Delta, a 
major California water supply would essentially be shut off. 
Last year, the program received $500,000 and preliminary 
reports from the Corps' Sacramento district office show a need 
of well over $1 billion in levee repairs. An official report on 
the levees is set to be delivered to Congress on May 18th, but 
it is clear that Federal investment is not required in fiscal 
year 2007.
    My constituents and I do not find that the CALFED levee 
integrity program is without merit. So why does the President? 
In fact, it is imperative to the welfare and economy of the 
State of California and the Nation that the Delta levees are 
protected. Unfortunately, this project seemingly was caught up 
in OMB's new performance guidelines which have not been debated 
here in Congress. The annual budget process is not the way to 
change the rubric to understand and to determine the efficacy 
of Corps projects. That process belongs to Congress, and if 
warranted should be included in the WRDA Act redevelopment, 
which we hope we can have this year.
    So I would like to hear from the panel today on the topic, 
because we should not leave here this year without adopting a 
final WRDA reauthorization.
    We also have an interest in ensuring that the Army Corps 
has the tools to conduct its missions across the Country. The 
projects undertaken by the Corps are vital to the safety of our 
constituents and the economy of our Nation. There are many of 
us here in Congress who would like to work with the Corps to 
ensure that they are working at their full capacity on 
meritorious projects around the Country. Unfortunately, that is 
not reflected in the budget sent to Congress year after year by 
this Administration. I hope next year we are presented with a 
different set of circumstances.
    As I said, I would like to submit some questions to 
Lieutenant General Strock that he could answer in writing, as I 
may have to leave before I have the opportunity to ask them 
directly. And Mr. Chairman, I thank you for having this hearing 
and I yield back the balance of my time.
    Mr. Duncan. Thank you very much, Ms. Tauscher.
    Mr. Fortuno.
    Mr. Fortuno. Thank you, Mr. Chairman.
    Good afternoon, dear colleagues, Lieutenant General Carl 
Strock, Commanding General of the Army Corps of Engineers, and 
distinguished members of the panel.
    First, I would like to take this opportunity to thank the 
Corps of Engineers for the great work they have done and 
continue doing in my district and throughout the Nation. The 
infrastructure projects under your jurisdiction are 
indispensable for the economic advancement of our Nation. This 
reality became very palpable, unfortunately, through the 
devastation that hit the Gulf Coast region last fall.
    Puerto Rico, due to its geography and location, is at great 
risk of major flooding, not only during hurricane season, but 
throughout the year, due to torrential rains. The Corps of 
Engineers in Puerto Rico has 33 projects of interest, most of 
them flood control projects, of which only 3 are being funded 
in the fiscal year 2007 budget. I am concerned at the 42.5 
percent reduction in fiscal year 2007 civil works program and 
how this reduction will impact the infrastructure and security 
of our Nation, including my constituents in my district.
    I strongly support this Committee's position that the Corps 
should be funded at a level that will allow it to achieve its 
full capability, which is based on the Committee Views and 
Estimates, and that it should be $5.5 billion for fiscal year 
2007. In the particular case of Puerto Rico, I urge the Army 
Corps to reconsider its decision to put into suspense the 
Portuges and Bucana flood control project. I also urge the 
Corps to consider funding to CAP 205 projects flood control 
projects of great importance to my district, Rio Fajardo and 
Rio Ojo de Agadilla. In both cases, the respective mayors have 
offered to contribute the funding of those projects.
    Also of importance are the flood control projects of the 
Rio Orocovis, Rio Nigua in Salinas, and Rio Grande de Loiza in 
Gurabo. I would also like to stress the importance of the 
Portuges and Bucana flood control project. Last summer, I had 
the opportunity to visit the project, along with Mr. Richard 
Bonner, Deputy District Engineer for Programs of the 
Jacksonville District Office.
    I was impressed by the magnitude of the project and the 
positive impact it had in the municipality of Ponce. The cost 
benefit ratio of the project is very high at 2.7. This ratio, 
however, does not take into consideration the risk of life 
involved, extensive property damage and the growth in the Ponce 
urban area that will be directly impacted if there is a 100 
year flood.
    I also feel very strongly that this project should be 
analyzed under the same guidelines of dam safety projects, 
which I understand are exempted from the cost benefit analysis. 
Prior to initiation of this project's construction, flooding 
occurred almost annually. Major floods have occurred in 1954, 
1961, 1970, 1975, 1985 and 1992. The value of the property 
subject to flooding exceeds $600 billion. The 100 year 
floodable area without construction of the Portuges Dam covers 
1,833 acres in the center of the city of Ponce. That 100 year 
flood event will impact 13,200 residences and over 5 million 
square feet of commercial and office area. Most of the city 
schools and not-for-profit organizations are within the 
floodable area.
    Close to 40,000 people could be directly affected by the 
flooding in the area, while the inundation damages range from 
$200 million for the 25 year flood to over $500 million for the 
100 year flood event. Average inundation damages are estimated 
at over $20 million. In order to be able to complete this 
project within the next five years, it must be funded at a 
level not lower than $25 million.
    I once again would like to the Corps of Engineers for the 
great work they are doing in my district. I strongly support an 
increase in funding level and urge you to reconsider your 
budgetary decision on putting the Portuges and Bucana Dam 
project in suspense.
    Again, thank you very much. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Mr. Fortuno. We want to 
try to prevent some more major disasters before they happen. 
Certainly, we will work with you. I understand for example, 
that Sacramento is at higher risk right now than even New 
Orleans was before Katrina.
    Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. I think it is 
appropriate that this is sort of our first jumping off point 
this year. I know that you and the Ranking Member have been 
looking at ways that we can focus on understanding what is at 
stake with water resources.
    I am hopeful, we go through a little bit of this every year 
with the budget, because it is never quite what we want and 
expect. The Administrations, Republican and Democratic, have 
tended sometimes to slide past some priorities that they think 
Congress just might fund. They have to squeeze a lot in a small 
box.
    I do appreciate some signals that we have been receiving 
over time dealing with issues of priorities and cost sharing, 
cost responsibility. There are some things here, I share some 
concerns that my colleagues have raised. I also like the notion 
that we may send some signals about some long term major 
investments and what the relative role should be between the 
State, Federal, local and private owners, things like 
artificial beach construction, for instance. I think there are 
some areas here that we can have a very product discussion.
    I hope that as Congress works with you on understanding 
what is in the budget, the adjustments we are going to make, 
that it can provide a jumping off point for us in a post-
Katrina period. We have had some painful discussions, and I 
know it is difficult for the men and women who work with the 
Corps and the programs, because there is lots of stress and 
strain. There is anticipation about what is going to come, and 
a big job that is being dealt with right now, not just in New 
Orleans. But obviously that is the most visible.
    I am hopeful that we can finally update our partnership 
with you. I hope that we will not be operating under principles 
and guidelines that were drafted a quarter century ago. That is 
embarrassing. It does not help you. It does not send the right 
signals. And it does not guide us where we need to be going.
    I am hopeful that we will do a better job of being frank in 
Congress and between the Administration and Congress about the 
prioritization. In the past, to be frank, a lot of things have 
ended up being funded that have had more political interest 
than probably could be merited in terms of just a rigorous 
assessment of priority.
    And I am hopeful that a budget that is going to be 
increased by this Congress, no question about it, but that it 
can be increased in a fashion that is consistent with our 
principles, that are going to save more lives, more property, 
more emphasis on natural restoration that is not going to have 
you spinning your wheels and us chasing projects, frankly, in 
some cases, that are from a different era. I am hopeful that we 
can walk that fine line.
    And I understand people are concerned locally. But we have 
things that have to drop off this list. We can't just keep 
updating some stuff that we know will never be built. And we 
can't ask the men and women in the Corps to sort of keep 
everything shelf ready when we have immediate demands that are 
facing us.
    So I look at this as more a point of departure. We have 
watched this happen year after year. But this year, the stakes 
are higher. Your job is harder, the public awareness is higher, 
and we have had very vivid illustrations of what works and what 
does not. While you have been working to transform the Corps, I 
have enjoyed my interaction with men and women in the Corps 
since I have been in Congress. I know where people want to go. 
And the men and women in the trenches understand where we need 
to go.
    We need to have a budget that gets us there. We need to 
have policies that get us there, and we need to, I think, up 
the ante this year more than ever.
    I appreciate, Mr. Chairman, your courtesy in permitting me 
to share some observations. We have lots of people, so we will 
probably be flopping in and out of this hearing. But this is 
very important, I think, as a point of departure, and I look 
forward to the presentation.
    But more important, I look forward to the shirt sleeve 
sessions were we can take the positive things that are here, 
build on them and get the most out of the budget that we are 
going to be approving.
    Thank you.
    Mr. Duncan. Thank you very much, Mr. Blumenauer.
    Does anyone on our side have any statement? Anybody else 
wish to make a statement?
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Chairman Duncan and Ranking Member 
Johnson, thank you for getting us together on the proposed 
budget and the priorities.
    I must look back over the nine and a half years that I have 
been here, and in every instance that I can remember, and I 
will stand corrected, I have been a 100 percent supporter of 
the Corps, not only during budget time, but during the year. I 
have gone to the meetings of the Corps in my district and other 
districts. When things got hot and heavy, I was a defender of 
the Corps.
    This year, I am going into the audience. And I am telling 
you, between now and the first time of the meeting that we have 
in the district, I hope there are some real dramatic changes. 
This is not reality TV. And I do not see much of a connection 
between the fact, between the conditions presented in this 
budget and the priorities that you presented here. In fact, 
this is a very vague budget. It is mind boggling to see after 
all the debates we have had, Mr. Chairman, over the past five 
years, that we are at this stage in the history of mankind, in 
this Congress, in this Committee.
    Every year, as we prepare for this hearing, we know that 
the Administration's Army Corps priorities will be very 
different from those of the Congress. This is something that we 
agree on on both sides of the aisle. So I don't know which 
party the Administration represents, to be very frank with you. 
We are very committed on this issue of what is needed out there 
to protect our waterways, to ensure clean water, to protect 
those folks out there in terms of damage from flooding and 
their life and limb.
    I do not know what we need to do to communicate the 
severity of what is going on in the United States of America. 
We have had one example in the last eight months, which was a 
tragedy. And we will have others, maybe inland, maybe on our 
waterways, if we don't attend to things.
    What we hope is that the Administration will not completely 
ignore important projects initiated by the Congress, 
continually supported by our appropriations. This year, we are 
surprised to learn that the Army Corps has reprogrammed money 
Congress appropriated for important projects, and moved this 
money to their own priorities. That is astonishing. That has 
put a finger in the eye of the Congress if I ever saw it. We 
learned that they have no plan to return the money to projects.
    In my district, a dam was being built on the Ramapo River. 
Mr. Woodley knows quite well what I'm talking about. It is 
short $2.5 billion of previously appropriated money, the full 
amount necessary to complete this project. Since there is no 
plan to return the money, by this April the dam is in danger of 
being, will be out of funds, half built.
    We have told the very people, and I use this only as an 
example, Mr. Chairman, we told the very people involved in this 
dam, my district is a little bit downstream, and it will be 
catastrophic if this thing does not get done, for both 
districts, we told the people, you told the people, this was 
going to get done. If we don't have the money there, it ends in 
April.
    Now, do you want me to go to the meeting with you to 
explain it? I will gladly do it. But I am going to be in the 
audience. Or you find the money.
    Now, how many other projects across the United States of 
America? This Congress cannot be treated the way we are being 
treated. This is not why the folks sent me down here. And it is 
not why you are doing your job, and you all do a great job, I 
tell you that. And I know you are the messengers. So the 
messenger will have to hear the story or find a different way 
to do this.
    In another project, the Army Corps has been holding 
extensive public hearings regarding a floodway buyout program, 
a buyout program, we talked about this for years, around the 
Pumpton River, to save people from extensive flooding and to 
use the area for flood management. The project has lost almost 
$900,000 in reprogrammed funds. It is zero funded in the 2007 
budget. That was a brilliant stroke. And now my constituents 
who have been intimately involved in the process are left up a 
creek without a paddle, literally.
    You know that many of us over the past 25 years have been 
looking for a way to deal with this flooding in our area. We 
have tried everything. We have gone from tunnels, which have 
cost 50 times more, down to at least doing the preliminary 
things, the fundamental things. If we can't get this right, 
what in God's name can we get right?
    These reprogramming issues need to be addressed. These 
projects are Congressional priorities identified in previous 
years and then now, suddenly, they are lacking funds. That is 
not acceptable.
    In terms of broader priorities, I find the budget's stated 
goal of ``proposing funding for the continued development and 
restoration of the Nation's water and related resources'' to 
directly contradict their actual funding proposed in the 
budget. A glaring example of this is the Passaic River 
Restoration Project in New Jersey. Many cities along the 
Passaic River, one of the most polluted rivers in the Country, 
are looking toward redeveloping abundant and under-utilized 
waterfront land to meet their need of new commercial, 
industrial and residential investment.
    Much of this property holds limited value because the 
river's industrial legacy has left it in a state of 
contamination and abandonment. The ongoing Lower Passaic River 
Restoration Project is pulling a host of resources from the 
Corps, the EPA, the State of New Jersey and private entities to 
achieve a true comprehensive cleanup of the river in the 
shortest amount of time. This project is an important component 
of the Urban River Restoration Initiative, which has the lofty 
goal of restoring some of our Nation's great rivers to beauty 
and magnificence, which drew cities to sprout. Cities started 
at the bend of rivers. That is where it all started.
    In order to maintain the extensive consortium of parties, 
Federal investment in the river study is necessary. According 
to the 2005 civil works program five year development plan, 
this project should have $1.5 million this year. Instead, it is 
among a long list of projects which we will put on hold, what 
is it, over 400, I think, of those projects.
    Now, I don't think it is good enough for you to be the 
messengers. I think that you need to be advocates so that you 
can restore your own credibility. I want to stand and work with 
the Corps, as everybody on this panel does, everybody, with no 
exceptions. The Peckman River is another example. It is a 
project that was authorized by this Subcommittee six years ago. 
It is wallowing in budgetary limbo in the President's budget.
    The President's budget zeroed out funding, last year we 
restored $150,000. You know what gets under my skin most of 
all, Mr. Chairman? Okay, we can say, well, we will get together 
on both sides of the aisle, we will get together with the 
Senate and we will put some of these monies back. I believe 
that as well intentioned as that is, to me it is dishonest. 
Because if I have to make a distinction, if I have to make a 
decision as to whether I can, and I use the example all the 
time, you give Barry Bonds and Sammy Sosa and Mr. Giamba 
$70,000 of tax cuts or, or mind you, or, provide for clean 
water for our residents, prevent flooding from ruining property 
and taking lives, it did in my district, I will choose the 
latter.
    You have to make that decision. You cannot simply be a 
messenger. I am sorry for sounding pedantic, and I apologize 
for that. But what do you expect of us? What do you want us to 
do? Go through the same act three?
    Mr. Duncan. Mr. Pascrell, let me say, you know I love your 
statements better than just about anybody. But you have been a 
little over 10 minutes.
    Mr. Pascrell. Sorry. Thank you, Mr. Chairman.
    Mr. Duncan. I am going to see if anybody else has a 
statement on either side.
    Ms. Norton.
    Ms. Norton. Thank you very much.
    I know the representatives who appear before me can only 
argue for the President's budget. And you are hearing some 
frustration from members on what that budget does not include. 
This is a committee that has done its homework on WRDA, for 
example, and yet a full bill has not come out of the Congress.
    You will hear members speak about their own districts. They 
are usually talking about something that the State built and 
that they are wanting the Federal Government to subsidize. I am 
in a different position, gentlemen. I am talking about 
something that you built, something built entirely by the 
Federal Government long before there was any home rule in the 
District of Columbia, something that might have been built 
differently had there been home rule at the time.
    Moreover, what I am talking about is in every sense a 
Federal facility. Because I am talking about the system built 
by the Corps of Engineers that deals with our stormwater 
overflow. In case members want to know what that means when it 
comes to the capital of the United States, it means that the 
sewage from the Federal presence, including from this building, 
goes into this contraption, that is what I think of it as now, 
because it is old, obviously, and outdated, that when it rains 
hard, simply overflows. What that means is that the sewage from 
the Congress and other Federal buildings and from downtown 
Washington, this is mostly sewage from the Federal presence, 
not from the residents of the District of Columbia, mixes with 
the stormwater and overflows into, if you will forgive me, the 
streets of the Nation's capital.
    Here we are dealing with all that the Corps could do when 
it did it, which was to build a system which combined these 
systems, at least at the point of overflow. We are to the point 
where nobody could be expected to fix this system out of its 
own budget, if that is a city, and where of course the Federal 
responsibility is abundantly clear more so than any single item 
I dare say affecting a member's district and any budget 
affecting such a system. The Federal Government has understood 
it is implicated. That is why we subsidized the matter. All the 
District of Columbia is asking for is a subsidy as well.
    But we are talking about a system that has, I don't know, 
$5 billion worth of, $2 billion, let me say. It goes up, I have 
been asking for it for so long, it is hard to know where it is 
today, worth of work, where the city is willing to do its job 
but where the Federal Government, because it uses the very 
facility I am talking about, and because it built it from 
scratch, has a very special obligation.
    The WRDA bill, and I appreciate what this Subcommittee was 
able to do, could only put in a $35 million authorization. What 
happens of course is that the President's budget sometimes 
includes extra money here and there, and the Congress puts in 
extra money here and there. The President, to his credit, 
recognizing that this is a Federal responsibility, has tended 
to put in a few million dollars every year.
    This year's budget, as I recall it, has no money 
whatsoever. This is a dangerous situation, Mr. Chairman. We are 
talking about sewage that affects 20 million visitors who come 
to the Nation's capital every year in any kind of downpour that 
is a heavy rain. When we are talking about overflowing, we are 
talking about overflowing, we are talking about overflowing 
into everywhere in the District of Columbia that has an outlet.
    What the District now does assiduously is to go around at 
the gutters and clear out all of the leaves and try to mitigate 
the effect. We are fixing it little by little, as there has 
been a few million dollars put in. Little by little, we fix 
that part of it.
    I can only make a special plea before this Committee, not 
in the name of the 650,000 people I represent, they are 
entitled to no more than any other member is entitled to, but 
in the name of the capital of the United States, in the name of 
a system that is more than 100 years old, built entirely by the 
Corps of Engineers, as it was built in those days, in the name 
of basic sanitation in the Nation's capital, that more than the 
token response that we have been receiving from the Federal 
Government is necessary.
    We really do not want to wait until somebody gets terribly 
sick and it is diagnosed as a result of stormwater overflow. I 
ask that the Federal Government, our Committee, yes, and the 
Administration, do more to step up to this Federal 
responsibility. Thank you very much, Mr. Chairman.
    Mr. Duncan. Thank you, Ms. Norton. Anybody else?
    Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman. I will be brief. I 
didn't want to miss the opportunity to sing the praises of the 
Corps. And I say that, it might have come across sarcastically, 
but you all have been working through some very difficult 
issues in Florid with the Everglades, the releases of the water 
from Lake Ocochobee, the Caloosahatchee River. Both the 
Everglades and the Caloosahatchee River are important to me and 
the people of my district.
    I just want to tell you to keep up the work, keep on trying 
and make sure that if there is one thing I can ask, it is that 
we do a better job, myself included, in communicating the goals 
and how we are going to get there with the different groups 
that are interested in the water releases in the Everglades in 
my district. You have the South Florida Water Management 
District, all the water management districts, and it is a very 
complicated and difficult issue. The modified water project is 
extremely important to the health of the Everglades and 
ultimately the health of the Caloosahatchee River.
    So I look forward to continuing to work with you on behalf 
of the people of the 14th Congressional District in Florida and 
all of the people of Florida, to make sure that we are keeping 
up our end of the bargain. I think the State of Florida has 
done a tremendous job in trying to move the projects forward. I 
want to make sure that I do everything I can in Washington to 
help that process move forward.
    You have been great in reaching out to our office and 
talking with us. I just want to make sure we continue that 
dialogue.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much.
    Mr. Baird.
    Mr. Baird. Very briefly, Mr. Chairman.
    First, I want to commend the Corps for their great work. We 
know the challenges you face monetarily and with so many of 
your members deployed overseas. It has added to your burden.
    Two very quick things. I have worked for some time on 
Section 214(d), which as you know authorizes the Corps to use 
money from sponsoring organizations or entities in order to 
expedite the permitting process. That will expire, I believe, 
in another 30 days. Today I introduced legislation, which I 
hope my colleagues on this Committee will support to extend 
that, should we not pass WRDA in time.
    At some point I would very much appreciate the Corps' input 
on the efficacy and usefulness of that. My understanding from 
my cities, ports, counties, et cetera, is clearly that if they 
do not have that authority, it will cost us hundreds of 
thousands and in some cases millions of dollars, because of 
permitting delays that we are able to obviate through the use 
of this language. So I hope to gain more on that when we have a 
chance to speak.
    Secondly, I just want to thank you for the work your staff 
out in the Northwest is doing on permitting issues. With the 
listing of salmon on the ESA, it has been an extraordinary 
burden. General Strock, you have been great as a leader on 
this. We met previously on this. Your folks out there do a very 
good job. They are, however, understaffed, as you know well, 
for the burden they face. That understaffing, which we are 
responsible for, because we don't give you the funds, costs our 
taxpayers in the long run and our businesses and communities, 
because they can't get their permits in time and we can't get 
the projects.
    So at some point, I look forward to continuing work with 
you on that. I yield back. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Mr. Baird
    We are very pleased to have a distinguished panel with us 
today. Three of the four witnesses have been with us before, 
some several times. Leading off will be the Honorable John Paul 
Woodley, Jr., the Assistant Secretary of the Army for Civil 
Works. Second will be Lieutenant General Carl A. Strock, Chief 
of Engineers for the U.S. Army Corps of Engineers. Next will be 
the Honorable Bruce I. Knight, who is the Chief of the Natural 
Resources Conservation Service. And finally, our new member 
here today, Mr. Craig H. Middlebrook, who is the Deputy 
Administrator of the St. Lawrence Seaway Development 
Corporation.
    Gentlemen, it is an honor to have each of you here with us. 
Your full statements will be placed in the record. We do ask 
that you try to hold your opening statement to about five 
minutes. We will let you run over that by about one minute. But 
in consideration of the other witnesses, when you see me hold 
this up, try to bring it to a close.
    Secretary Woodley, you may begin.

 TESTIMONY OF THE HONORABLE JOHN PAUL WOODLEY, JR., ASSISTANT 
    SECRETARY OF THE ARMY, CIVIL WORKS, U.S. ARMY CORPS OF 
    ENGINEERS; LIEUTENANT GENERAL CARL A. STROCK, CHIEF OF 
   ENGINEERS, U.S. ARMY CORPS OF ENGINEERS; BRUCE I. KNIGHT, 
    CHIEF, NATURAL RESOURCES CONSERVATION SERVICE; CRAIG H. 
    MIDDLEBROOK, DEPUTY ADMINISTRATOR, ST. LAWRENCE SEAWAY 
                    DEVELOPMENT CORPORATION

    Mr. Woodley. Thank you, Mr. Chairman. It is once again a 
pleasure to appear before the Committee and to testify before 
so many very distinguished members of whom I have had now for 
three years the privilege of working as an advocate for water 
resource development projects across the Country.
    I am delighted to be accompanied this afternoon by 
Lieutenant General Carl Strock, a very distinguished soldier 
and our very distinguished 51st Chief of Engineers. It would be 
remiss of me not to take this opportunity before the Committee 
to call the Committee's attention to the challenges that faced 
the Corps of Engineers during the calendar year of 2005 just 
passed, and to remind the Committee that we have, as a Nation, 
every right to be very, very proud of the performance that 
General Strock and his civilian, soldiers and civilians of the 
Corps of Engineers have done in the calendar year 2005 in the 
face of enormous adversity and unprecedented challenge.
    Our fiscal year 2007 budget, Mr. Chairman, includes $4.7 
billion in Federal funding, which is a 5 percent increase from 
the President's proposal for last year, budget for last year. 
This week, we are providing a five year budget plan, along with 
the other budget justification materials, which will include 
not only a budget-driven scenario, but also a scenario with 
higher funding levels and one with lower funding levels for 
comparison.
    The budget includes an increase of about $280 million for 
construction projects, compared to the fiscal year 2006 budget. 
This funding is allocated according to guidelines that 
emphasize economic returns, reduction of risk to human life and 
ecosystem restoration benefits.
    The budget provides $173 million to the Corps' regulatory 
program to protect wetlands and other waters of the United 
States. This represents a $15 million increase compared to 
fiscal year 2006 appropriation and a 20 percent increase in 
budgeted funding for the regulatory program over the last three 
years.
    Every year, Mr. Chairman, that I have presented a budget 
before the Congress, I have on behalf of the President 
requested substantial increases in the resources for the Corps' 
regulatory program, because I, like the President, recognize 
that this program has enormous benefits for the Nation and that 
resources devoted to this purpose are well spent. I have had 
generally good success in having that supported by the 
Congress. I ask for your support again through the 
appropriation process for 2007.
    The budget reassigns about $340 million of work in existing 
projects from the construction account to the operation and 
maintenance account. We believe this reassignment improves 
accountability and oversight, represents the full cost of 
operation and maintenance and supports an integrated funding 
strategy for existing projects. You will see our operations and 
maintenance budget presentation has been revamped. It is 
presented by major river basin and mission areas. We believe 
this lays the groundwork for improved management of 
appropriated funds and more strategic formulation of future 
budgets.
    It also includes an increased funding for preparedness, 
response and recovery activities related to flood and coastal 
storm emergencies. This budget does not include funding for 
recovery from last year's hurricanes, because supplemental 
appropriations have provided and will provide that funding.
    In summary, the budget and the five year plan incorporate 
performance principles, allocate funding to activities with 
high returns and advance important objectives. I will say, as I 
have said before, Mr. Chairman, this budget does not fund all 
of the excellent things that the Corps of Engineers is capable 
of doing. But it does make important investments and moderate 
resource development that will reap enormous benefits for the 
Nation in the future.
    Mr. Duncan. Thank you very much.
    General Strock.
    General Strock. Thank you, Mr. Chairman, and distinguished 
members of the Committee. I am honored also to be testifying 
before you here today with Mr. Woodley, Mr. Knight and Mr. 
Middlebrook on the President's fiscal year 2007 budget for the 
Army Civil Works Program.
    If I may, I will briefly summarize some of the key points 
of my full statement and with your permission will include that 
statement in the record.
    This budget is a performance based budget that reflects the 
realities of the national budget supporting the Nation's recent 
natural disasters and the global war on terror. This budget 
focuses construction funding on 63 projects that will provide 
the highest returns on the Nation's investment, including 11 
dam safety projects. Funds will be used for critical water 
resources infrastructure that improves the quality of our 
citizens' lives and provides a foundation for national economic 
growth and development.
    The budget incorporates performance based metrics for 
continued efficient operation of the Nation's water-borne 
navigation, flood protection and other water resource 
management infrastructure, fair regulation of wetlands and 
restoration of important environmental resources. There are six 
national priority construction projects funded in the 
construction program: the New York-New Jersey harbor deepening 
project, the Oakland harbor deepening project, construction of 
Olmstead Locks and Dam in Illinois and Kentucky, the Florida 
Everglades and south Florida ecosystem restoration project, the 
side channels of the upper Mississippi River system, and Simms 
Bayou in Houston, Texas.
    There are also two others, the Missouri River restoration 
and the Columbia River restoration, that are now funded in the 
operations and maintenance account. The budget also improves 
the quality of recreation services through much stronger 
partnerships and modernization. This budget provides 
approximately $65.3 million to complete 14 projects, including 
one dam safety project by the end of 2007.
    As part of a comprehensive strategy to reduce the 
construction backlog, the 2007 budget funds projects that are 
the highest returns and are consistent with current policies. 
In all, 91 projects are funded so that we can provide benefits 
to the Nation sooner.
    The fiscal year 2007 budget includes $2.258 billion for 
operations and maintenance. I can assure you that I will 
continue to do all that I can to make these programs as cost 
effective as possible.
    Domestically, more than 8,000 USACE volunteers from around 
the Nation have deployed to help citizens and communities along 
the Gulf Coast in the aftermath of Hurricanes Katrina, Rita and 
Wilma. Even now, more than six months after Hurricane Katrina, 
2,000 USACE volunteers continue to execute our FEMA-assigned 
disaster recovery missions along the Gulf Coast and to 
accomplish critical restoration of the New Orleans area levee 
system. Internationally, the U.S. Army Corps of Engineers 
remains committed to the monumental task of helping to rebuild 
the monumental task of helping to rebuild the infrastructures 
and economies of Iraq and Afghanistan.
    More than 1,700 USACE volunteers have deployed to Iraq 
since 2003. I might point out that every one of them is a 
volunteer that shares the same hardships and dangers alongside 
of our soldiers. They continue to make progress toward this 
Nation's goals of restoring the security and quality of life 
for all Iraqis and Afghanis as they pursue democracy and 
freedom.
    The Corps' Gulf Regional Division has overseen the 
initiation of nearly 3,000 reconstruction projects and the 
completion of more than 2,100. These projects make a difference 
in the everyday lives of the Iraqi people and are visible signs 
of progress and this Nation's commitment.
    Water resources management infrastructure has also improved 
the quality of lives of our citizens and supported economic 
growth and development in this Country. Our systems for 
navigation, flood and storm damage projects and efforts to 
restore aquatic ecosystems contribute to our national welfare.
    In closing, the Corps is committed to selflessly serving 
the Nation, and I truly appreciate your continued support to 
this end.
    Thank you, Mr. Chairman and members of the Committee. That 
concludes my statement.
    Mr. Duncan. Thank you very much, General Strock.
    Mr. Knight.
    Mr. Knight. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to appear before you today to 
discus the water resource program activities of the Department 
of Agriculture's Natural Resources Conservation Service.
    In my remarks today, I am pleased to describe our ongoing 
work and to discuss our budget and priorities for fiscal year 
2007 in basically four programs: watershed surveys and 
planning; watershed and flood prevention operations; watershed 
rehabilitation; and finally, the emergency watershed program.
    The NRCS water resource programs offer communities and land 
owners site-specific technical expertise for watershed planning 
and financial assistance for watershed projects. The programs 
are designed to help solve local natural resource problems, 
including flood damage mitigation, water quality improvement, 
rural water supply, water conservation, soil erosion and fish 
and wildlife habitat.
    The water resource programs have given NRCS the authority 
to complete work on 2,000 watershed projects nationwide. The 
flood control dams and other water resource program measures 
implemented through these watershed projects provide than $1.5 
billion in local benefits each year.
    The President's proposed fiscal year 2007 budget eliminates 
funding for most of NRCS' watershed program to direct funds to 
higher priority and more cost effective programs. Let me review 
briefly the current watershed programs.
    Under the Watershed Survey and Planning Program, NRCS 
assesses natural resources use and develops coordinated 
watershed plans to conserve and utilize natural resources. 
These programs, also known as PL-534 and PL-556 programs, 
authorize the Secretary of Agriculture to work cooperatively 
with the Federal Government, States, and most importantly, the 
local political subdivisions, to plan and install watershed 
improvement measures and to foster conservation in these 
authorized watersheds.
    The President's budget for 2007 proposes to eliminate funds 
for these programs and redirect them to higher priority 
programs. Logically, then, with the elimination of the 
watershed and flood prevention operations, continuation of the 
planning component under the Watershed Surveys and Planning is 
also no longer necessary.
    Mr. Chairman, while the NRCS water resource programs have 
been successful over the past 50 years, we believe that 
sponsoring organizations, as well as State and local 
governments, can now assume a more active leadership role in 
both the planning and that high priority projects not yet 
completed will continue to receive strong local support. Since 
1948, over 11,000 flood control dams have been built in the 
2,000 watershed projects across America. Many of these dams 
were designed for a 50 year life span, and now are at or near 
that age.
    Since enactment of the Watershed Rehabilitation Amendments 
of 2000 and subsequent amendments in the 2002 Farm Bill, NRCS 
has developed rehabilitation plans on 107 dams. Of these 
projects, 47 have been completed and 49 currently have 
implementation underway.
    The President's budget funding request for fiscal year 2007 
includes $15.3 million for watershed rehabilitation activities 
involving these aging dams. NRCS will utilize the funding to 
focus on critical dams where failure could pose a high risk to 
loss of life and property.
    The Emergency Watershed Program authorizes emergency 
measures to retard runoff and prevent soil erosion and to 
safeguard lives and property from natural disasters. Typical 
work under this program ranges from removing debris from 
clogged streams caused by flooding to prevent soil erosion on 
hillsides after a fire or reshaping and replacing stream banks 
due to erosion caused by flooding. In response to urgent needs 
from communities across the Gulf Coast region recovering from 
Hurricanes Katrina and Rita, NRCS has already completely near 
$23 million in recovery work under the EWP program.
    The fiscal year 2006 supplemental appropriation provide an 
additional $300 million for EWP work from Hurricanes Katrina, 
Rita, Wilma and Dennis, which is currently being implemented. 
The President recently requested $10 million of supplemental 
funding for the Emergency Watershed Program to purchase 
easements on flood plain lands in disaster areas affected by 
Hurricane Katrina and other hurricanes of the 2005 season. 
Under this program, a land owner voluntarily sells a permanent 
easement to NRCS in return for the payment of the agricultural 
value of the parcel, forgoes future cropping and development of 
the land.
    In summary, the U.S. Department of Agriculture has 
accomplished much through the water resource programs over the 
past 50 years. Economic, social and environmental benefits from 
these programs have been significant for both agriculture and 
urban communities. However, in the context of the budget 
request for fiscal year 2007, we must prioritize limited 
resources to address more pressing challenges ahead and to meet 
our budget deficit reduction targets.
    I thank the Subcommittee and would be happy to respond to 
any questions.
    Mr. Duncan. Thank you very much, Mr. Knight.
    Mr. Middlebrook.
    Mr. Middlebrook. Thank you, Chairman Duncan, Ranking Member 
Johnson and other distinguished members of the Subcommittee. It 
is an honor to be part of this distinguished panel and to speak 
before you today.
    Our written testimony has been submitted for the formal 
record. Allow me to summarize that testimony here with a short 
oral statement.
    The U.S. St. Lawrence Seaway Development Corporation is a 
wholly owned Government corporation and operating 
administration within the U.S. Department of Transportation. It 
operates and maintains the two U.S. locks in the St. Lawrence 
River and promotes trade through the St. Lawrence Seaway with 
its Canadian counterpart, the St. Lawrence Seaway Management 
Corporation. The unique bi-national nature of the Seaway 
requires 24 hour, year-round coordination on regulations, 
traffic management, safety and security with our Canadian 
partners.
    The St. Lawrence Seaway is a vital transportation corridor 
between the agricultural and industrial heartland of North 
American and our trading partners throughout the world. Since 
the Seaway opened in 1959, more than 2.4 billion metric tons of 
cargo have passed through its locks and channels with an 
estimate cargo value of over $400 billion.
    During the 2005 navigation season, approximately 43.3 
million metric tons of cargo moved through the Seaway, with an 
estimated cargo value of $7.1 billion. Commercial maritime 
commerce on the Great Lakes Seaway System annually sustains 
over 150,000 U.S. jobs and generates $4.3 billion in personal 
income, $3.4 billion in business revenue and over $1 billion in 
Federal, State and local taxes.
    The President's fiscal year 2007 proposed funding level of 
$18,245,000 supports the Corporation's mission to ensure a 
safe, secure and reliable waterway by providing the resources 
necessary to implement our priority projects and programs. The 
need to carry out preventative maintenance on the two U.S. 
locks remains a high priority for the Corporation as we enter 
our 48th year of continuous operation. This commitment has been 
the key to ensuring the reliability of the Seaway 
infrastructure for almost half a century. In that time, the 
U.S. Seaway locks have never experienced a major shutdown due 
to lock equipment malfunctioning.
    In fiscal year 2007, we are planning to start a four-year 
modernization project of the lock valve equipment, converting 
the existing electromechanical machinery to hydraulic 
components. During the 2005 navigation season, the U.S. 
portions of the Seaway were available 99.5 percent of the time, 
and while this exceeded our performance goal of 99 percent, we 
always aim to do better.
    As was proposed last year, the fiscal year 2007 budget 
proposes to reestablish U.S. Seaway commercial tolls as a self-
funding mechanism for the St. Lawrence Seaway Development 
Corporation. The Corporation was self-funded for the first 30 
years of its existence, from 1959 to 1987. This proposal would 
not diminish or change the Corporation's important mission, but 
merely return the Corporation to its original funding 
mechanism. The Administration supports efforts to improve 
service delivery to the public, and believes this proposal 
would enable the Seaway Corporation to function more like a 
private corporation.
    The Seaway Corporation recognizes that a proactive approach 
to maritime environmental issues is critical to the successful 
future of the Great Lakes Seaway system. Within the limits of 
our mandate, we are involved in efforts to combat the 
introduction and spread of aquatic invasive species in the 
system. Moreover, we seek to promote the often overlooked 
environmental benefits of the marine mode.
    The St. Lawrence Seaway has proven its vital significance 
to America's economy for nearly half a century. I want to thank 
this Subcommittee for your continued support of the Seaway's 
mission and close by assuring you that the Corporation's 
excellent safety, reliability and customer service record will 
remain strong.
    I would be glad to respond to any questions that the 
Subcommittee may have.
    Mr. Duncan. Thank you very much, Mr. Middlebrook.
    Mr. Shuster, since you didn't make an opening statement, 
would you like to ask a question before you have to break for 
the vote?
    Mr. Shuster. Yes, Mr. Chairman, thank you very much.
    In 2004, Hurricane Ivan caused considerable damage in 
Pennsylvania, western Pennsylvania. There is one such community 
there, Meyersdale, Pennsylvania, which is in Somerset County, 
those folks have been, as well as about 10 or 11 other 
projects, have been working with the Corps to design and 
construct solutions to the damaged areas, earthen levees are 
mainly what they are redesigning.
    Unfortunately, those funds in the Pittsburgh district Flood 
Control and Coastal Emergencies Account had to be redirected to 
Katrina, which of course, we understand that. But there is 
great concern in those 12 communities in western Pennsylvania 
and eastern Ohio as to the funding. Is it going to be put back 
in? Do you have a plan to restore that funding? Because again, 
western Pennsylvania, I am sure across the Country. So a 
broader question would be not only the 12 in western 
Pennsylvania and eastern Ohio, but around the Nation.
    Mr. Woodley. Yes, sir. I believe we are asking for funds to 
replenish the Flood Control and Coastal Emergencies Account. I 
will get back to you on the particular details as to the 
communities that you mentioned.
    Mr. Shuster. We are entering into obviously the spring 
season and flooding is going to be a problem, as well as going 
into the hurricane season as we go forward. So it is critical 
to these communities.
    A second question that I am curious about is WRDA, the WRDA 
bill. We have passed it probably in the last four years two or 
three times out of the House. We are waiting on our 
counterparts in the Senate. What is the Administration's 
position on WRDA? Do they believe that it should be a priority 
that needs to go forward?
    Mr. Woodley. Yes, sir. We believe that there are numerous 
projects that are included in the bill that are very high 
priority for the Country. I would be remiss if I didn't also 
mention there are aspects of the bill that trouble the 
Administration to some degree. But we are very anxious to work 
with Congress on having an authorization.
    We concur in the Chairman's earlier remarks about the time 
that it has been since the last iteration of a Water Resource 
Development Act and feel it is a very, very important vehicle 
for the Nation to come together on what the priorities are for 
water resource development, which is the primary mission that 
we undertake.
    So we would very much like to see the houses of Congress 
get together and work with us and the Administration through 
that process and have the best WRDA bill that we can have.
    Mr. Duncan. We have a lot more questions, but we only have 
six minutes left on this vote. I have asked Mr. Boustany to 
come back and chair while I go for the vote. So we are going to 
keep this recess to as brief as possible. But we will be in 
recess just very, very briefly.
    Thank you.
    [Recess.]
    Mr. Boustany. [presiding] Well, we will resume the hearing. 
Chairman Duncan will be back shortly, but we will start from 
here. We welcome everybody back.
    I have a couple of questions. General Strock, as you know, 
my district in southwest Louisiana was hit pretty hard by Rita. 
While New Orleans was devastated and certainly much of your 
attention has been focused on the levee situation down there, 
and you guys are doing a great job, I appreciate the work you 
are doing and I want to say thank you on behalf of the State of 
Louisiana.
    I am concerned about this issue of Rita fatigue or amnesia. 
It was a serious hurricane that hit southwest Louisiana. I was 
able, back in December, in the supplemental, to get $500,000 
appropriated to look at a levee system along the Gulf 
Intercoastal Waterway and also to look at flood measures in 
southwest Louisiana. In fact, on December 19th, I sent a letter 
requesting a detailed time line for implementation of this 
survey. I have not, to my knowledge, talking to my staff 
earlier today, received any response yet.
    So I was wondering if you have any information on this, or 
if not at this time, if you could please get back with me on 
that. We have not had any major flood measures taken in 
southwest Louisiana, so this is a starting point. Clearly it is 
necessary to protect a lot of key infrastructure and the energy 
industry, as well as farm land.
    I don't know if you have a response at this time.
    General Strock. Sir, I am aware of that requirement, but I 
do not have the details in front of me. I would like to give 
you that for the record, please.
    Mr. Boustany. Thank you. Also, in the immediate days after 
Hurricane Rita, we had over 80 tows waiting to clear the Leland 
Bowman Calcasieu lock reach of the Gulf Intercoastal Waterway. 
This came at a significant cost to the economy of about 
$400,000 for each day. These were direct transportation 
penalties. I think we all agree that this Calcasieu lock is a 
bottleneck that needs to be fixed.
    It is my understanding, I quickly reviewed the list, and I 
don't think I saw that as a request in the President's budget. 
But correct me if I am wrong, if it is not there. Also, how 
much money do you think the Corps would need to complete that 
alternative replacement study? Is that information you would 
have now or is it something you could get to me?
    General Strock. Sir, again, I will have to answer that one 
for the record. I do not have that information here.
    Mr. Boustany. Thank you.
    Mr. Knight, I want to thank you also for the work you have 
done in Louisiana. Just over two months ago, Congress 
appropriated an additional $300 million for the Emergency 
Watershed Program, which is certainly an essential tool in the 
recovery efforts in my neck of the woods in southwest 
Louisiana. I am concerned about the new cost share requirements 
imposed in the language of the Appropriations Bill that may 
prohibit a number of communities from accessing these dollars. 
Specifically I am talking about the cost share. I think your 
ability to waive the cost share requirements or to alter them 
in some fashion. If you would please, could you respond to 
that?
    Mr. Knight. Yes, Congressman. We had authority 
traditionally under the Emergency Watershed Protection program 
where in cases of exigency and potential loss of life where we 
needed to act quickly that we could waive the traditional 25 
percent cost share match if a community were particularly 
devastated. We were able to put about $23 million worth of 
funds out prior to the supplemental of which we were compelled 
to waive a portion of that.
    We are now in the implementation stage on that $300 
million, and in our preliminary checks in the State of 
Louisiana, it looks like the 25 percent cost share match will 
be problematic for about 50 to 60 percent of the communities 
that we are needing to work with. We are working on getting 
more accurate details in the other Gulf Coast States. But the 
preliminary impacts look significant.
    Mr. Boustany. Right. I hope you will work with me on that, 
because a number of the small rural communities which were 
completely wiped out will be affected by this. We have a lot of 
marsh land, small waterways and so forth that are critical for 
our farming industry as well. So I hope that we can work with 
you to create some flexibility here.
    Mr. Knight. We will be very pleased to work with you on 
that, sir, and we share that same concern, in that with some of 
this improvement of the watershed so that it drains correctly 
and completely, it can all too easily be pushed aside on 
conflicting priorities until later in the year when the 
flooding starts. So we are looking for creative solutions that 
we can on this particular problem.
    Mr. Boustany. Again, I thank you for your work and the help 
you have given Louisiana.
    Now I am pleased to recognize the Ranking Member, Ms. 
Johnson.
    Ms. Johnson. Thank you very much.
    Mr. Woodley, in your testimony, you testified that the 
fiscal year 2007 budget addresses the construction backlog by 
focusing in on the President's priorities for funding. However, 
this budget requests funding for only 91 projects, leaving a 
list of 532 other construction projects that received funding 
in fiscal year 2006 that would receive no funding should this 
budget be approved.
    Of course, included in this is the Dallas Transit Floodway 
extension. I know you are very familiar with that. So I am 
asking, near pleading, because this Committee is very 
frustrated, can we get your assistance in determining what 
issues the Administration has with enacting a Water Resources 
bill? And will you talk to the White House officials, OMB 
officials or whoever it is that do not seem to want a Water 
Resources bill and come back and report to me on what steps 
Congress needs to take to move this process along?
    And then maybe you could ask the President to suggest what 
I tell my constituents, that we are facing flooding of all 
downtown, and yet on the construction, this has been zeroed 
out. I would like to know some answers. Would you follow up on 
those three things?
    Mr. Woodley. Yes, ma'am. You are certainly entitled to full 
response to all of those concerns. I will get back to you as 
soon as I possibly can.
    Ms. Johnson. Thank you very much. I yield.
    Mr. Boustany. Mr. Gilchrest.
    Mr. Gilchrest. Thank you very much, Mr. Chairman.
    The four gentlemen at the table before us have two bosses: 
a direct boss and an indirect boss. I am not counting any 
relatives or anything like that.
    The direct boss is the President via OMB. The indirect boss 
is us. So I am not going to ask you fellow for anything. But 
what I am going to try to do, as my colleagues, is to get 
enough support to direct the Corps to do certain things. And I 
think the Ranking Member just actually laid out a 
collaborative, cooperative, mutually beneficial process in 
which we can reach the same conclusion and find the scarce 
resources to accomplish it.
    I have some parochial issues with my district in the 
Chesapeake Bay. The regulatory program has been increased over 
the 2006 budget by about, it looks like about $14 million, 
which is good. What I would like to do is talk to you, Mr. 
Woodley and General Strock, a little bit further about how we 
can replace the regulatory people that have been lost in my 
district over the last few years from retirement, transfers and 
so on. They did some extraordinary jobs working with local 
communities to ensure the permitting process was expedited, the 
local communities understood the regulatory arm of the Corps of 
Engineers, the Section 404 and those kinds of things.
    I don't know if you have an answer for me right now. But I 
would like to work with you and the Committee to see if we can 
get a couple other agents out there to do that process.
    The second question I have deals with another parochial 
issue. It is a small, little community called Westview Shores. 
They are right next to a dredge disposal site. That dredge 
disposal site has been closed, but the leaching of the material 
from the dredge disposal site has rendered their wells in 
Westview Shores undrinkable. So they have had to use bottled 
water at least for 10 years now.
    So that is an issue that I will work with the Baltimore 
District and the Philadelphia District, because that is right 
along the C&D Canal. But I just wanted to bring that to your 
attention.
    Another thing is, we had two biologists appointed or sent 
to the Chesapeake Bay, mostly the 1st Congressional District, 
that dealt with how to work with NRCS, local governments, the 
farm bureaus, the Corps of Engineers, on projects, to look at 
them from the big picture perspective dealing with ecosystems. 
Those two fellow, I can't remember their last names, but their 
first names were Steve, we called them the two Steves, they 
were sent off to Iraq and Afghanistan. So we understand that. 
But that big picture view of issues from an ecosystem 
perspective, and I just got through reading a book about bogs, 
marshes and swamps, interlaced in that book was an 
understanding of the ecology. The book was written in 1966, so 
it is 40 years old. And the Chesapeake Bay program is well 
adapted to this kind of a process.
    I was going to say Bruce, but I guess in this formal 
setting, we should say Mr. Knight. Your programs that you 
mentioned here today dealing with flood mitigation, water 
quality, adequate water supply, water conservation, soil 
erosion, fish and wildlife habitat and so on, lends itself to 
this question and a request.
    I could take, and maybe Mr. Middlebrook would like to come 
to your St. Lawrence Seaway, but the Chesapeake Bay is a 
beautiful place, I would like to take Mr. Woodley, General 
Strock, and Mr. Knight on a short canoe ride-hike where we 
could look at all of those issues in one small stretch, where 
soil erosion is an issue, flood problems are issues, water 
quality problems are issues, habitat for fish are issues.
    And in just a few hours, and I would supply the coffee, 
unless you wanted something a little stronger, egg sandwiches 
if we did it in the morning. But it would sort of lay out in 
this one small section, it is called the Sassafras River, but 
it is very reflective of the issues across the Chesapeake Bay, 
that we could go through some of these issues, the regulatory 
questions we have, Westview Shores, water quality, et cetera. 
So if before I leave, if I could get your scheduler's phone 
number, I will get my scheduler, and we will get this thing 
pulled together.
    I think my time has expired. Thank you very much, Mr. 
Chairman. I want to thank the witnesses for their testimony. I 
don't know if I have time to have some responses.
    Mr. Woodley. I can tell you, Mr. Gilchrest, we were last 
together I think on Poplar Island. It was a very memorable 
occasion for me, and I am very, very proud of the work that the 
Corps is accomplishing in that context. I am always at your 
disposal for a visit to the Eastern Shore.
    You may recall that I was Secretary of Natural Resources 
for Virginia, and had responsibility for Virginia's part of the 
Eastern Shore with the Accomack and those communities. So I 
have some familiarity with it, but I am delighted to learn 
more.
    Mr. Gilchrest. We call it the DelMarVa Peninsula. We should 
be the 51st State, actually. We are a sandbar created by the 
quiet movement of sediment down the Delaware and Susquehanna 
Rivers over about a million years, I guess. It would be a 
beautiful day, we could start off in the morning and have some 
meetings of the mind.
    Thank you, Mr. Chairman.
    Mr. Woodley. Congressman, I could be there Saturday.
    Mr. Gilchrest. Saturday? Saturday morning. Whatever time. I 
will give you directions.
    Mr. Woodley. We will get back to you, we will put that 
together.
    Mr. Gilchrest. Saturday morning. Thank you.
    Mr. Boustany. Mr. Gilchrest, what about us?
    [Laughter.]
    Mr. Gilchrest. Everybody in this room is invited. And I 
will get the canoes.
    Mr. Boustany. All right, thank you.
    General Strock. If I could also, Mr. Gilchrest, we will 
give you complete details on your concerns over the presence of 
regulatory personnel in the DelMarVa Peninsula. We did have one 
individual who handled enforcement that retired. He is being 
covered, his absence is being covered by a person out of our 
Baltimore district.
    But we do have a regulatory office that remains with two 
people full time devoted to processing of permits. They are 
still there. So it is being covered. And we will get back to 
you on the long term.
    Mr. Gilchrest. You have an office in Easton with two men 
that are there. We have known them for some time, we visited 
those two people, the enforcement agent lives on the Western 
Shore, must travel over.
    General Strock. That is right.
    Mr. Gilchrest. I would like to sit down and discuss the 
difference between the way it is handled now and the way it was 
handled just a few years ago. Everybody that is working is 
fine, they're upstanding, they have a great deal of integrity 
and they work very hard. But when we lost Alex Dolvus, it was 
like the Sioux Indians losing Sitting Bull just before Custer 
showed up.
    General Strock. Sir, the budget proposal would allow us 
nationwide to hire about 50 more regulators. Certainly that 
will be distributed across, there may be some more resource 
that can be applied in that area.
    Mr. Gilchrest. Thank you very much, General.
    Mr. Boustany. Mr. Taylor.
    Mr. Taylor. For the Indians' sake, Crazy Horse did make it 
there that day, much to General Custer's chagrin, if I recall.
    General Strock, thank you. I want to thank you personally 
for your visit to south Mississippi in the immediate aftermath 
of the storm. I know for the people of Bay St. Louis and 
Waveland, it meant a lot for them to see you. I was very 
grateful for it.
    I do want to commend the Corps overall. I think they have 
done a very good job. There is nothing that human beings do 
that we can't do better. And one of the things I would pass on 
in the recommendations for next time, I found it strange, the 
process of actually moving the debris twice. Instead of having 
a final resting place and just putting it in the truck one 
time, I think we ended up paying money unnecessarily both for 
the additional storage site but also to truck it twice.
    I know we had to do some things very quickly in the 
beginning, when it was a true emergency. But something I hope 
that will come of all of this as you look back on your plans 
for the next storm, and I regret to say there will be a next 
storm, is to be able to shift on the fly, so to speak, and make 
those changes. Somewhere about three weeks out, that should 
have just been going to the final resting place.
    The second thing is an ongoing problem that is coming to my 
attention. I realize this starts with FEMA, but you are FEMA's 
agent in at least two of the large counties on the Coast. FEMA 
is saying that the removal of concrete is not a Katrina related 
issue. As one of the many people who used to have a house and 
now has a slab, I can assure you, those slabs are only there 
because the hurricane took the house away.
    And since another Governmental entity is telling all of us 
that we have to raise our houses substantially, they are not 
going to get rebuilt on a slab. So the slabs have to go. So I 
do think it is Katrina related.
    Now, where I am asking for your help, is that a lot of this 
concrete has been moved to the road's edge and it is just 
sitting there. It is not being picked up by the Corps. And I 
really believe it is a resource that if used properly, we could 
be doing beneficial uses, of building fishing reefs, building 
breakwaters, doing coastal erosion, solving that.
    And since you are going be, eventually I think FEMA will 
agree to moving that stuff, and since we are going to pay 
somebody $17 a yard just to throw it in a landfill, I would 
really hope in the little bit of time that has been bought that 
the Corps could come up with a plan to do some beneficial use 
for it. I know that we can identify, each of our barrier 
islands is washing away. The State owns Deer Island right off 
of Biloxi. It has washed away about a third in my lifetime.
    You have places like Bayou Caddy that are federally, they 
are on the Federal books as far as being maintained by the 
Corps, where I think if you had breakwaters on both sides, they 
would scour themselves better and you wouldn't do as much 
maintenance dredging. So I would really encourage the Corps to 
try to make, where we can, some lemonade out of the lemons we 
were dealt at the end of August.
    The other thing, I am sure you know from your geography 
that if you go due north of the mouth of the Mississippi River, 
you are just about back in the State of Mississippi. So I do 
pay very close attention to Louisianan's efforts for the 
coastal zone. I was curious, as someone who is familiar with 
the Mississippi River Gulf Outlet, if you could describe what 
you hope to accomplish by the gates. Because it is throwing me 
off a little bit, and I do not claim to be an engineer. But I 
am familiar with the topography.
    I don't know what you accomplish by the gate when 
everything around it is so low. It just seems to someone like 
myself that the water ends up at that junction of the 
Industrial Canal and the Mississippi River Gulf Outlet, whether 
there is a gate there or not, just because it goes across the 
marsh.
    I was hoping, as someone who is interested in this, that at 
least one of the options you are looking at is letting the 
Mississippi River Gulf Outlet just go back to being something 
like a barge canal and let some of the fresh water diversion 
projects that have to date not benefitted Mississippi very much 
could be coming off of the eastern, what I call the eastern 
bank of the Mississippi River and replenishing the marshes due 
south of Mississippi, if you all have looked at that as an 
option.
    General Strock. Sir, I can certainly answer the part on the 
closure structures that we are proposing. The actual closure 
structure is not on the Mississippi River Gulf Outlet. It is 
just to the west of where the Gulf Intercoastal Waterway and 
the MRGO come together. There would be a closure there, and it 
is not a navigation closure, it is a surge barrier that would 
only be closed during hurricanes. It would not permit 
navigation like a lock.
    We would also propose one where the Inner Harbor Canal goes 
up into Lake Pontchartrain. And the purpose of that with the 
existing lock on the Mississippi River, those three structures 
would isolate the inner harbor where we have had overtopping 
concerns and we also have eyewalls in there that we are 
concerned about. So essentially what those do is close off the 
inner harbor, much like we are going to do with the Dragon's 
Canal, the 17th Street, Orleans and London. That is the whole 
purpose of that. It would be impractical, as you say, to try to 
put some structure in MRGO based on its length and 
geomorphology.
    We are also proposing, the supplemental that is now before 
Congress, for about $100 million of wetlands restoration. Part 
of it is for, we look at how we operate the Caernarvon 
Diversion for sediment as opposed to just saltwater and water 
transfer. And we are also looking at using some of that to try 
to put in some protection of the existing wetlands, to prevent 
further erosion in that area.
    Mr. Taylor. Since I have your ear, one of the original 
diversions was going to be at the Valud Canal, which is on the 
east bank south of the city of New Orleans. It was actually 
scaled back because they felt like it was building, and again, 
this is from a Corps report from a decade ago, but they felt 
like it was building wetlands too quickly. Well, I think we all 
know that that would not be a problem today.
    I would certainly encourage you to take a second look, 
since I know how long the permitting process takes, and it has 
just been my observation, it is a heck of a lot easier to grow 
a permit than to start from scratch. I think if you are looking 
for some instantaneous change down there, that would be one way 
of doing it. And quite frankly, it would be beneficial to the 
coastal area off of Mississippi.
    But again, thank you, I do want to thank the Corps for the 
good job you have done. I would encourage you to have some 
flexibility in the contracting. It seems like, and we have 
spoken about this, in the immediate aftermath of the storm, 
whoever had that contract had to show up with their own fuel, 
their own food, their own showers, make their own electricity, 
fix their own equipment. And you could see why the price was 
fairly high to begin.
    But within a month, things were getting somewhat back to 
normal, where food and fuel and electricity could at least be 
purchased locally. I would hope that in future, when this 
happens again, that you could have a contract for the immediate 
aftermath and then go to some sort of rebidding on the debris 
removal that would be more advantageous for the local folks, 
more like the one month mark rather than the five or six month 
mark like we have seen.
    General Strock. Sir, we are very sensitive to that, and 
that will be a feature of how we operate in the future. I have 
a fact sheet which details Mississippi's subcontracting, small 
businesses and so forth, to show we are actually transitioning 
in that direction right now. I will share that with you after 
the hearing.
    Mr. Taylor. Okay. Thank you, Mr. Chairman.
    Mr. Boustany. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman, and thank you all for 
being here today, Mr. Secretary.
    I represent the coast of South Carolina, from Kiawah on up 
to Myrtle Beach. We have some particular concerns about some of 
the items that are not funded in the request. One being the 
Intercoastal Waterway, which extends from somewhere around New 
York down to Miami. We would like to have some idea about how 
we are going to be able to continue to maintain that waterway.
    I know that a lot of the criteria that you established is 
based on commercial ton miles. I readily admit there is not 
much barge traffic on that particular waterway. But it is a 
vital part of the economy of my region and also I guess the 
other States that connect that waterway.
    So I would hope that when establishing the criteria for 
funding that you would use models or some other form other than 
just the commercial tons. Because tourism is a very important 
part of the economy of South Carolina, particularly along the 
coast. I would hope somehow that you would use that economic 
driver as part of the formula.
    The next question is the beach renourishment, which is a 
big item for us along the coast. I noticed that we had about 
three or four planned projects, and I noticed on the 532 items 
that were not being addressed in this particular bill, that 4 
of those are along this stretch along South Carolina. I was 
just wondering about how we were going to be able to go back 
and remedy our beaches.
    I went to Mississippi and I saw what happened with the 
storm surge there. A beach that is not nourished is going to 
certainly have more interior damage than one that is nourished. 
So I would just like to get some feel of how we plan to do the 
preventive maintenance in case there is a hurricane coming.
    Mr. Woodley. Yes, sir. Mr. Brown, I think I should mention, 
in regard to the Atlantic Intercoastal Waterway and the other 
low-use waterways and small harbors, that the first two budgets 
that I had the privilege to submit to the Congress included a 
request of the appropriations committees and the Congress as a 
whole for a specific fund or funds that would be used in the 
navigation program to support the gathering of information 
necessary to prioritize and to manage the small harbors.
    I knew I was getting no support, within the Administration 
at least, for anything outside of the major, the most major 
commercial facilities. And I asked for it in the first year 
that I served, and I was denied. And I am no less hard headed 
than anybody else in this business, so I asked for it the 
second year, and I was denied. And I was not so hard headed to 
ask for it the third year.
    The second part of your question is certainly a matter that 
has vexed the Congress and Administration for many years now. 
We are perpetuating our suggestion that the initial 
construction of a coastal storm surge barrier is a Federal 
responsibility that is cost-shared with the locality served, 
but that beyond that, the renourishment is a Federal 
responsibility only to the extent that renourishment is 
impacted and interrupted by a Federal channel, which as you 
know is the case at Folly Beach. We have once again proposed 
that.
    I fully understand that the Congress has historically taken 
the view, which is an entirely respectable view, that I have no 
real quarrel with it, it is just you choose one and go with it. 
The concept that we have is that that is not properly regarded 
as, the renourishment is not properly regarded as an operation 
and maintenance concept, but as part of the design of the 
facility itself, which is, because of its nature as a sand 
berm, is a sacrificial structure.
    I know that that is the way the structures are designed and 
the way those projects are formulated. I understand that, and 
we are not at all embarrassed when Congress establishes that 
policy and funds it to execute that requirement, which is what 
we have been doing. But as far as budgeting, right now, as of 
today, our budgetary policy and proposal is limited to those 
renourishments that are impacted by Federal navigation.
    Mr. Brown. And that is an internal policy that's 
established by the Corps, or is that an act of Congress?
    Mr. Woodley. No, sir, that is an Administration budgetary 
policy proposal that is embodied in the submission that we have 
made to the Congress this year and in prior years.
    Mr. Brown. I notice, Mr. Chairman, my time has expired. But 
if I could just further comment on that, we have a major port 
at Charleston, which is about a 45 foot depth port. And we have 
a 27 foot port in Georgetown. I know the Corps' commitment to 
keeping the Charleston harbor open is pretty evident.
    But the Georgetown harbor, this year we had one ship that 
actually grounded at 27 feet. We were notified by the Coast 
Guard, and no funds were available last year in order to 
continue the dredging there. I just wonder if you could comment 
on that.
    Mr. Woodley. On the specific port of Georgetown, I cannot. 
We will have to take that for the record. In general, on 
maintenance dredging, our maintenance dredging funds are 
extremely limited, and we have been experiencing in the past 
couple of years increases in the bids that we received for 
maintenance dredging contracts. That is causing enormous 
management challenges for our navigation districts, that they 
are working through as hard as they can.
    But I think that we will see challenges like the one you 
described in all of our maintenance dredging operations. And we 
are committed, certainly, to manage it as closely as we can and 
to deal with it. That is one of the reasons why we are 
presenting our maintenance budget on a regional basis rather 
than specific to each individual project this year, so that we 
could do our surveys, and if Port A needs more work or spot 
work, we can do that with funding that we find then is not 
necessarily needed at Port B without implementing a formal 
reprogramming of money from one project to another, which the 
Congress has criticized as reflecting bad financial management.
    Mr. Brown. And I appreciate that, and I know that I am as 
much a budget hawk as anybody else on this Committee. But I 
know that we have certain infrastructure needs in this Country 
that we have to satisfy. Sometimes the cost savings is going to 
be more than the cost of the project. So we certainly want to 
support you in whatever efforts we can do, as a member of this 
Committee, to be absolutely sure that not all our 
infrastructure needs are met, but at least some of the major 
projects are included.
    General Strock. Mr. Brown, I have just been handed a piece 
of paper here that reminds us that in fact you did get $3.7 
million for Georgetown in the 2006 appropriation. The President 
has asked for $3.6 million in fiscal year 2007. I don't know 
where that fits in terms of the requirement, but money is in 
the 2007 budget for this project.
    Mr. Brown. That is correct, and the $3.7 million, we 
actually had to compete in the appropriation process for that 
money, and we really do appreciate your putting the $3.6 
million in the 2007 budget. Because I think even the total is 
probably a $7 million, $8 million commitment. But we thank you 
for that.
    Mr. Boustany. Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    We appreciate our being here, Mr. Secretary and General 
Strock. I apologize for not being here through the whole thing.
    I just have a quick question. In fact, literally, I am 
meeting next door with Colonel Walters. He does a great job 
keeping us informed in the 3rd District of Arkansas about what 
is going on in the district, what is going on in the State. 
Again, we really do appreciate working with the Corps.
    We are going through a drought in that part of the Country 
right now, a pretty significant drought. They have been very, 
very helpful in keeping the citizenry informed and being very 
helpful and really allaying some of the fears that are going 
on.
    The quick question I have is, has to do with the Clean 
Water Act Section 404 permits as far as the average processing 
time now, and then I guess in the budget there is $173 million 
for the regulatory account. I guess my quick question would be, 
how do you feel like that is going to affect the processing 
time, what is the processing time now, and then how do you feel 
like it is going to affect it in the future?
    General Strock. Sir, I will start out with some of the 
specifics and then turn it over to the Secretary to complete 
the answer. I mentioned earlier on before you arrived that we 
have about 900 project managers in our regulatory program 
across the Country. The proposed increase will allow us to 
bring on around 50 more regulators. So that kind of tells you 
it is about a 5 percent increase in our capacity, our human 
capacity. That will not do a great deal to eliminate the 
backlog.
    Our current goal is that 75 percent of the permits, 
applications we received will be finished in 120 days as long 
as they do not have ESA implications. Right now the average 
processing time is about 190 days, so clearly we are not making 
our goal. And this will help in some regard.
    Some of the other things that help, though, as Mr. Baird 
mentioned earlier on, the application of Section 214 allows 
non-Federal entities to come in and pay for essentially their 
own permit application processing. That takes pressure off the 
available funds we have, and that is a help.
    We are also, through the Army leadership, applying a 
business transformation across everything we do, applying a 
process called Lean Six Sigma. We think that that really does 
have some benefits potentially in processes of regulatory 
permits. The Lean part talks to increasing the speed of the 
process, and the Six Sigma talks about the quality.
    So there are a number of things we are going to work on. It 
is not just a matter of buying more regulators. It is looking 
at our process from top to bottom, so we are working real hard 
on that.
    Mr. Secretary?
    Mr. Woodley. Thank you, General Strock.
    Mr. Boozman, I thought I would have something to add to 
that answer, but I scarcely do. I would only concur 100 
percent, and say that we know that there is not a member on 
this Committee that would solve a problem just by throwing 
money at it. We feel a need for a little more resources, and in 
every budget I have presented, I have advocated for and gotten 
the President's support for additional resources for this 
program.
    But we see also the need to streamline, streamline is not 
exactly the right word, but to transform our processes, to 
squeeze out the waste, make them faster, make them better and 
improve our interface with other agencies, with the States, and 
improve our processes so that while we are adding resources on 
the one hand, we are also getting more efficiency on the other.
    Mr. Boozman. Thank you very much. And again, I really do 
appreciate the Corps' hard work.
    Mr. Boustany. Mr. Taylor, do you have additional questions?
    Mr. Taylor. Mr. Secretary, I have noticed the kind of 
roller coaster on the prices you pay for dredging and how much 
it has affected your ability to do maintenance dredging. I was 
curious if the Corps maintains enough of their own dredges to 
where they can have a pretty good baseline on what is a fair 
price to pay outside of the Corps for dredging. Are you solely 
at the mercy of the private contractors?
    Mr. Woodley. Yes, sir, we do maintain a very substantial 
capability in the area of hopper dredges. I confess, I am not 
an engineer and I don't even play one on TV. I am just a lawyer 
trying to do a job here.
    But I have learned that there are numerous kinds of 
dredges. We just presented a major report to the Congress on 
the hopper dredge arena, and that essentially found that in the 
hopper dredge category that the private sector has over the 
last several years stepped up to the plate, brought new 
equipment on board and is capable of meeting a great deal of 
the need.
    So we have on the other hand a very substantial capability 
within the Corps of Engineers. Right now we have in our Federal 
fleet four major hopper dredges. I think our report suggests 
that one of those could be phased out and the private sector 
could meet the need.
    As far as other kinds of dredges are concerned, our 
impression is that we do have a strong industry and that we 
would not be seeking additional organic capacity to compete 
with the private sector. Essentially, we feel we are getting a 
good level of competition, but that the demand is increasing, 
and perhaps on a, what we would hope would be a temporary 
basis, because of the need for large amounts of work in the 
Gulf and Atlantic area associated with damage to facilities 
from the extraordinary hurricane activity in 2004, which was 
experienced again in 2005.
    So we are hoping that that's a high point and that 2006 
will not be so bad.
    Mr. Taylor. Mr. Secretary, I guess my question would be, 
these are Congressionally mandated services that we provide for 
the citizens. When we say we are going to maintain a channel 
this wide and this deep, it goes on the law books, it becomes 
our responsibility to fund it, your responsibility to get it 
done.
    My question is, do you have a high level of confidence that 
you are actually providing this Congressionally mandated 
service at the lowest cost to the citizen by outsourcing it 
every time? Because my fear is, I am hoping that you can allay 
those fears, that the lack of a viable option within the Corps 
to do it yourself puts you at the mercy of the private sector, 
which may not always be a good thing.
    Mr. Woodley. Yes, sir, it is a constant balancing act that 
we do. Years ago, we had a very large fleet. I believe that it 
was the wisdom of Congress at that time, it was before my time, 
so I have to hedge my testimony to some degree, there are 
probably members here who recall it better than I would, but 
over time the idea grew that that was something the private 
sector could take over from the Government and that that would 
be a good thing in many ways.
    Although it never was that the private sector would take it 
over entirely. And we have certainly maintained a good fleet of 
vessels that we are very proud of. So I am, whether we have the 
right balance today is in doubt. It is constantly in doubt. I 
certainly would, as I say, we have just been asked for a major 
study on the hopper dredge arena, to examine that question. The 
other types of dredges could also be studied, and the same 
question, whether we have the right balance, could be 
determined. We have the balance that--
    Mr. Taylor. For the record, obviously it is something you 
were not expecting, so I can't expect you to have an answer. 
But for the record, I would like you to see if you have had any 
recent studies as far as cost comparison on suction dredges.
    The second thing is, if you could at some point update the 
Committee on, I know the Corps is one of the contractors that 
the Panamanians are speaking with on the possibility of a third 
set of locks. If at some point, either verbally or in writing, 
if you could inform the Committee where you stand on that.
    Mr. Woodley. Yes, sir.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Boustany. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    The District works closely with the Corps, even on matters 
that do not relate entirely to water. The Corps is a major 
developer, shall I say, or builder, for our schools. We are 
trying to wean away, this is because the Corps's GSA background 
or GSA type background would enable us to go through that 
process more quickly. We are trying to get back to the point 
where the District does its own schools, but I just want to 
say, I appreciate the kind of headache that it has been, and I 
know there has been a lot of controversy. But the Corps comes 
to see me every year, because there are a number of other 
things involving at least the Nation's capital or the District.
    I am not sure you are aware, and I would like to ask if you 
are aware of the fact that this Committee did pass as a part of 
the WRDA bill in July a section of my comprehensive Anacostia 
River Act. You may be aware that that Act is sponsored by 
every, virtually every member of this region, Maryland, 
Virginia, Senate and House. The Anacostia River of course is 
closely related to the issue I spoke of in my opening 
statement, and that is the stormwater overflow. It is going to 
be completely polluted until the stormwater overflow is dealt 
with.
    But the part of the WRDA bill that passed gives to the 
Corps a special and important task. Because three jurisdictions 
are involved, because the water passes through these three 
States, it asks that the Corps develop a comprehensive plan for 
revitalization of the Anacostia River, that would of course 
take into account stormwater overflow. That would involve the 
three jurisdictions themselves and their responsibilities, 
getting them on board for what it is they should be doing, 
along with of course our understanding as to how the Federal 
Government should contribute.
    Even getting the three jurisdictions on the same page 
comprehensively would be a great and important step forward, 
because each of these jurisdictions does contribute funds for 
the improvement of the Anacostia. And each has been quite 
willing to work with the Corps and the Federal Government on 
this issue. We consider the Anacostia the kind of stepchild of 
the District of Columbia rivers, because the Potomac was 
cleaned up, it must have been 30 years ago, and the Anacostia 
was left out there.
    I am very anxious to work with you on this plan and the 
fact that we have the entire region in a bipartisan way on the 
plan says something about the importance that the region 
attaches to getting to the Anacostia now. My side, which means 
the House of Representatives, has always paid good attention to 
WRDA. This is not the first time we have gotten WRDA through 
and we are waiting for Godot, which is to say, the Senate of 
the United States. They are still twiddling, or perhaps they 
are busily at work. I just want something to get out of here.
    I simply want to know if you are aware of this duty that 
the House has already approved that would place on you to bring 
every part of it together on the Anacostia River. I would like 
your views on the state of the river now. You have done some 
watershed work in here in past years. So I would be most 
pleased to hear your responses to those questions.
    Mr. Woodley. Thank you, Ms. Norton. We not only are aware 
of that, we would embrace that. You mentioned to Mr. Gilchrest 
a moment ago that he would recall and you may also recall that 
I came to this position from another position within the 
Department. And before that, I was the Secretary of Natural 
Resources for Virginia. In my capacity, I worked on the 
Chesapeake Bay agreement of 2000, in which the Anacostia was 
identified by the Chesapeake Bay partners as one of the major 
areas of emphasis in the restoration within the watershed.
    In that context, we would be very much in line with the 
Corps' cooperation with the Chesapeake Bay partners that has 
borne a lot of fruit in other areas, that we would be involved 
in the Anacostia. You are aware of the Kingman Island 
restoration that is underway as a continuing authority project 
within Baltimore District. We appreciate the support that that 
has received from the Committee in the past.
    The final thought I would leave of course is that as an 
element of the Defense Department, you are also aware that 
there is almost no element of the Defense Department that does 
not have a major presence, Navy, Marine Corps, Air Force and 
Army, on the Anacostia River. So as a representative of the 
Department in that context, I think we also bear a special 
responsibility to assisting the jurisdictions to have a 
comprehensive plan for that cleanup. It is something that the 
communities have come together on. I think this is a very 
exciting time to be involved on the Anacostia.
    Ms. Norton. I thank you very much, Mr. Woodley. I look 
forward to getting that bill out. Of course, we would work with 
Lieutenant General Strock. Would you say something about the 
Anacostia River, any work that is going on as I speak? Kingman 
Island was mentioned. Where are you on that, and where are we, 
as you say, on Kingman Island?
    And the other watersheds, when I came to Congress some time 
ago, a few sessions after I came to Congress we began to work 
on two or three wetlands. I know some of them are done and 
wonderfully done. Would you just give me a word on what you can 
remember that is going on now in the Anacostia and its 
wetlands?
    General Strock. Yes, ma'am. Certainly we are aware of the 
initiative in the WRDA and welcome an opportunity to act as an 
integrating function between the jurisdictions. In terms of the 
existing project, we selected 13 sites initially. Ten of those 
are now complete. The local sponsor elected not to go with two 
sites in Prince George's County, and the remaining site is in 
Montgomery County. Unfortunately, we have no funding, either in 
2006 or proposed for 2007. But as soon as that funding might 
become available, then we would proceed with the planning and 
construction of that 13th site in Montgomery County.
    Ms. Norton. I understand--didn't you do the site around 
Langston Golf Course, another site around the electric plant, I 
am trying to remember, there were at least three sites there 
were funding for in the District of Columbia.
    General Strock. Yes, ma'am, we did do all the District of 
Columbia sites. The only ones we didn't do are Prince George's 
and one in Montgomery. So those have been done. I can provide 
you details, have the Baltimore District come in and provide an 
update on where we are on those.
    Ms. Norton. Well, let me thank you for the work that was 
done on our wetlands. We were thrilled that the funding did 
come through for those wetlands some time ago and it has 
proceeded. The wetlands of course is necessary to protect all 
the rest of it. Those wetlands are right in the city and in 
those neighborhoods that value the Anacostia River so much.
    So I look forward to continuing to work with you, General 
Strock, and of course to the rest of you, and to have among you 
an official who knows this region well, and these terms and the 
value that the entire region puts on trying to get the 
Anacostia in line with a river that flows through, literally 
beats from the capital of the United States and major 
facilities.
    Again, thank you for your work and I look forward to 
working with you. I want to thank the Committee once again that 
the Committee has included this ten year plan responsibility 
for the Corps in our WRDA bill and may, God willing, it come 
out of the Senate soon. Thank you very much.
    Mr. Boustany. Mr. Middlebrook, you have been sitting 
through all this questioning very patiently. I have a question 
for you.
    What impact will the tolls proposed in the budget request 
have on the use of the Seaway, and do you expect a drop in 
traffic as a result of this?
    Mr. Middlebrook. We don't, sir. Looking first of all 
historically when tolls were taken off the Seaway back in 1987, 
there was the anticipation that traffic would respond very 
positively and increase at that time. In fact, it didn't. 
Traffic began to decline somewhat until the early 1990s, when 
it picked up.
    What that is an indication of and why we don't feel it will 
have a dramatic impact is that the overall cost structure of a 
Seaway voyage, looking at the total through costs from entering 
the system, port charges, stevedoring costs, pilotage costs, 
when one looks at that, the amount of tolls that would have to 
be charged to meet our funding requirements probably is less 
than 5 percent. It is somewhere in the order of 2 to 5 percent. 
So it is not a significant amount that is spread over those 
costs.
    Mr. Boustany. Thank you.
    Gentlemen, that concludes all the questioning by the 
Committee. We thank you for coming.
    Mr. Taylor. Just a quick follow-up. Several of my harbors 
are predominantly for oystermen and shrimpers. Because of the 
storm, since almost all of the waterfront diesel sales have 
been curtailed and all the waterfront ice distribution is at 
least temporarily gone, since the oyster reefs were temporarily 
either destroyed or buried, some of them are on the books, but 
that is the major cargo, it is either shrimp or oysters.
    So if someone were to do a snapshot BC study, all of them 
would be out of business. What kind of reassurance can you give 
me that that is not going to happen, that the Corps will be 
looking at the long term and not just a snapshot since the last 
of August? Because it would very much affect the future of 
places like Bayou Caddy, Pass Christian, the Gulfport shrimpers 
harbor, the inner harbor at Biloxi which is used, you know, the 
outer harbor is used for the coal barges, but the inner harbor 
is mostly for the shrimpers. I am looking for a little 
reassurance here that that won't be the case.
    Mr. Woodley. Yes, sir. When we do our analysis of cost 
benefit, we will find a way to discount the areas, the losses 
due to storm damage and to the inability of the resource to 
immediately rebound. We will find a way to deal with it based 
on historical data and to allow them to compete fairly within 
our system, regardless of the losses they suffered. I think 
that is only fair.
    Mr. Taylor. General Strock, to your knowledge, and I 
realize you can't memorize, nor can anyone, every dollar in 
every bill, but was there any money in the supplemental that 
passed as a part of the Defense appropriations bill, Katrina 
related, was there any of it geared towards getting those 
channels dredged? Or did they come out of your O&M budgets?
    Mr. Woodley. I am sure that it was our intention to include 
that and I would have to look at the spreadsheet to see that it 
was included. But I--
    Mr. Taylor. Could you answer that for the record?
    General Strock. We can answer that for the record, 
certainly, sir. I know that in a number of the channels we did 
go in and the supplemental provided the cost for that. If you 
are talking about some of the smaller harbors that handle just 
oyster and shrimp production, I do not know that any were 
specifically included in the supplemental.
    You know when we do our O&M allocations, we take rolling 
averages to try to smooth out those curves that might be caused 
by discrete events. This is a significant one, though, and your 
point is very well taken. We need to really look at Katrina and 
the series of storms that have surround her as extraordinary 
events and really understand the implications of that on our 
normal costing models for O&M.
    Mr. Taylor. Okay.
    General Strock. For the record, we will provide the details 
on the other investments.
    Mr. Taylor. Thank you very much. Thank you, Mr. Chairman.
    Mr. Boustany. Gentlemen, that concludes all our 
questioning. We thank you for your testimony and your answers 
to the questions. We do have some questions that we will submit 
in writing to you, and we look forward to those answers.
    That concludes this hearing. Thank you.
    [Whereupon, at 4:32 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8266.001
    
    [GRAPHIC] [TIFF OMITTED] T8266.002
    
    [GRAPHIC] [TIFF OMITTED] T8266.003
    
    [GRAPHIC] [TIFF OMITTED] T8266.004
    
    [GRAPHIC] [TIFF OMITTED] T8266.005
    
    [GRAPHIC] [TIFF OMITTED] T8266.006
    
    [GRAPHIC] [TIFF OMITTED] T8266.007
    
    [GRAPHIC] [TIFF OMITTED] T8266.008
    
    [GRAPHIC] [TIFF OMITTED] T8266.009
    
    [GRAPHIC] [TIFF OMITTED] T8266.010
    
    [GRAPHIC] [TIFF OMITTED] T8266.011
    
    [GRAPHIC] [TIFF OMITTED] T8266.012
    
    [GRAPHIC] [TIFF OMITTED] T8266.013
    
    [GRAPHIC] [TIFF OMITTED] T8266.014
    
    [GRAPHIC] [TIFF OMITTED] T8266.015
    
    [GRAPHIC] [TIFF OMITTED] T8266.016
    
    [GRAPHIC] [TIFF OMITTED] T8266.017
    
    [GRAPHIC] [TIFF OMITTED] T8266.018
    
    [GRAPHIC] [TIFF OMITTED] T8266.019
    
    [GRAPHIC] [TIFF OMITTED] T8266.020
    
    [GRAPHIC] [TIFF OMITTED] T8266.021
    
    [GRAPHIC] [TIFF OMITTED] T8266.022
    
    [GRAPHIC] [TIFF OMITTED] T8266.023
    
    [GRAPHIC] [TIFF OMITTED] T8266.024
    
    [GRAPHIC] [TIFF OMITTED] T8266.025
    
    [GRAPHIC] [TIFF OMITTED] T8266.026
    
    [GRAPHIC] [TIFF OMITTED] T8266.027
    
    [GRAPHIC] [TIFF OMITTED] T8266.028
    
    [GRAPHIC] [TIFF OMITTED] T8266.029
    
    [GRAPHIC] [TIFF OMITTED] T8266.030
    
    [GRAPHIC] [TIFF OMITTED] T8266.031
    
    [GRAPHIC] [TIFF OMITTED] T8266.032
    
    [GRAPHIC] [TIFF OMITTED] T8266.033
    
    [GRAPHIC] [TIFF OMITTED] T8266.034
    
    [GRAPHIC] [TIFF OMITTED] T8266.035
    
    [GRAPHIC] [TIFF OMITTED] T8266.036
    
    [GRAPHIC] [TIFF OMITTED] T8266.037
    
    [GRAPHIC] [TIFF OMITTED] T8266.038
    
    [GRAPHIC] [TIFF OMITTED] T8266.039
    
    [GRAPHIC] [TIFF OMITTED] T8266.040
    
    [GRAPHIC] [TIFF OMITTED] T8266.041
    
    [GRAPHIC] [TIFF OMITTED] T8266.042
    
    [GRAPHIC] [TIFF OMITTED] T8266.043
    
    [GRAPHIC] [TIFF OMITTED] T8266.044
    
    [GRAPHIC] [TIFF OMITTED] T8266.045
    
    [GRAPHIC] [TIFF OMITTED] T8266.046
    
    [GRAPHIC] [TIFF OMITTED] T8266.047
    
    [GRAPHIC] [TIFF OMITTED] T8266.048
    
    [GRAPHIC] [TIFF OMITTED] T8266.049
    
    [GRAPHIC] [TIFF OMITTED] T8266.050
    
    [GRAPHIC] [TIFF OMITTED] T8266.051
    
    [GRAPHIC] [TIFF OMITTED] T8266.052
    
    [GRAPHIC] [TIFF OMITTED] T8266.053
    
    [GRAPHIC] [TIFF OMITTED] T8266.054
    
    [GRAPHIC] [TIFF OMITTED] T8266.055
    
    [GRAPHIC] [TIFF OMITTED] T8266.056
    
    [GRAPHIC] [TIFF OMITTED] T8266.057
    
    [GRAPHIC] [TIFF OMITTED] T8266.058
    
    [GRAPHIC] [TIFF OMITTED] T8266.059
    
    [GRAPHIC] [TIFF OMITTED] T8266.060
    
    [GRAPHIC] [TIFF OMITTED] T8266.061
    
    [GRAPHIC] [TIFF OMITTED] T8266.062
    
    [GRAPHIC] [TIFF OMITTED] T8266.063
    
    [GRAPHIC] [TIFF OMITTED] T8266.064
    
    [GRAPHIC] [TIFF OMITTED] T8266.065
    
    [GRAPHIC] [TIFF OMITTED] T8266.066
    
    [GRAPHIC] [TIFF OMITTED] T8266.067
    

</pre></body></html>
